<html>
<title> - Ukraine: Report from the Front Lines</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115 Congress                                                                          Printed for the use of the
1st Session                                                      Commission on Security and Cooperation in Europe

                                                          


 
                       Ukraine: Report from the Front Lines 
                       

   
                        


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                     November 30, 2017                                       
                                     
                                     
                                     
                                     
                                     
                  
                                   Briefing of the
               Commission on Security and Cooperation in Europe
__________________________________________________________________________________________
                                    Washington: 2018                                                











                  Commission on Security and Cooperation in Europe
                        234 Ford House Office Building
                            Washington, DC 20515
                                202-225-1901
                            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e2d3d2d2b0e232f27226026213b3d2b60292138">[email&#160;protected]</a>
                            http://www.csce.gov
                             @HelsinkiComm
                             

                      Legislative Branch Commissioners
                     

              HOUSE                                            SENATE
CHRISTOPHER H. SMITH, New Jersey                     ROGER WICKER, Mississippi,
          Co-Chairman                                Chairman
ALCEE L. HASTINGS, Florida                           BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                          JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                            CORY GARDNER, Colorado
STEVE COHEN, Tennessee                               MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                       JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                             THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                            TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                                SHELDON WHITEHOUSE, Rhode Island
                        
          
            
                           Executive Branch Commissioners
          
          
                               DEPARTMENT OF STATE
	     	               DEPARTMENT OF DEFENSE
                               DEPARTMENT OF COMMERCE
                               
                                        (II)
          
          
          

                                        





ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.



ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


                             (III)



                    Ukraine: Report from the

                           Front Lines

                             ______
                             
                       November 30, 2017


                                                                                      Page
                           PARTICIPANTS
                              
                              
Alex Tiersky, Policy Advisor, Commission for Security and Cooperation in Europe .....  1

Alexander Hug, Principal Deputy Chief Monitor of the OSCE Special 

Monitoring Mission to Ukraine .......................................................  3

Appendix ............................................................................  18






                       Ukraine: Report from the

                            Front Lines
                            
                              ----------                              

                           November 30, 2017
                           
                           
                           
                           

 Commission on Security and Cooperation in Europe 
                 Washington, DC


    The briefing was held at 2 p.m. in Room 215, Senate Visitors 
Center, Washington, DC, Alex Tiersky, Policy Advisor, Commission for 
Security and Cooperation in Europe, presiding.
    Panelists present: Alex Tiersky, Policy Advisor, Commission for 
Security and Cooperation in Europe; and Alexander Hug, Principal Deputy 
Chief Monitor of the OSCE Special Monitoring Mission to Ukraine.

    Mr. Tiersky. On behalf of Senator Roger Wicker, Chairman of the 
U.S. Helsinki Commission, and Congressman Chris Smith, Co-Chairman, I'd 
like to welcome you to this briefing of the Helsinki Commission titled 
``Ukraine: Report from the Front Lines.'' My name is Alex Tiersky. I'm 
the political military affairs advisor for the Helsinki Commission.
    This has been something of a Ukraine week for the Commission. 
Yesterday we had a similar briefing on the subject of corruption in 
Ukraine. You may have seen the report on that subject. That is outside 
on the table.
    Like yesterday's briefing, this event is streaming live on the 
Helsinki Commission's Facebook page. So I'd like to welcome those of 
you who are viewing that way. And I'm told I should remind you to use 
our Twitter handle, @HelsinkiComm, if you're tweeting this meeting.
    Ladies and gentlemen, for more than three years now civilians in 
eastern Ukraine have suffered the effects of a needless conflict, 
manufactured and managed by Russia. An estimated 10,000 people have 
been killed and more than 23,500 injured. The humanitarian situation 
continues to deteriorate, amidst almost daily ceasefire violations and 
threats to critical infrastructure. Joseph Stone, an American 
paramedic, was killed on April the 23rd of this year while monitoring 
this conflict as a member of the Organization for Security and 
Cooperation in Europe's Special Monitoring Mission in Ukraine. We will 
often refer to it in this briefing as the SMM. SMM reports remain the 
only source of verifiable public information on this ongoing conflict, 
and the grave daily impact it has on the local civilian population. 
Mission personnel, like Joseph Stone, are unarmed civilians. They face 
regular and sometimes violent harassment by combined Russian separatist 
forces seeking to limit the mission's access to the areas they control.
    We are very fortunate that Alexander Hug, Principal Deputy Chief 
Monitor of the OSCE Special Monitoring Mission to Ukraine, has agreed 
to travel to Washington from Ukraine at our request to be with us 
today. By way of introduction let me note that Mr. Hug is a trained 
lawyer, he served as an officer in the Swiss army. He has served in a 
number of roles and positions at the OSCE previously, including as a 
section head and a senior advisor to the OSCE High Commission on 
National Minorities. He served at the OSCE Mission in Kosovo. His 
career in conflict resolution includes work with the Swiss Headquarters 
Support Unit for the OSCE in northern Bosnia and Herzegovina, the 
temporary international presence in Hebron, and the EU Rule of Law 
Mission in Kosovo.
    I'd like to underline on a personal basis Mr. Hug's sterling 
reputation as a tough, courageous, and principled diplomat with an 
exceptional background for the work that he's doing now. Not afraid to 
personally engage in sometimes quite dangerous situations, he's been a 
very strong voice for suffering civilians in an often-challenging 
political environment. His service is to be commended.
    I've asked Mr. Hug to focus his presentation for us today on two 
broad themes. The first, which we really want to emphasize, is the 
substance of the work of the monitoring mission. In other words, what 
do the monitors see? What does it tell us about the evolution of the 
conflict, as well as the plight of the civilians impacted by it? The 
second main theme I've asked him to focus on is the process of the 
monitors' work. How effectively are the monitors able to carry out 
their mandate? What obstacles prevent them from doing more?
    Before passing the microphone to Mr. Hug for his presentation, let 
me offer a few key substantive points from the perspective of the 
Helsinki Commission. The U.S. Congress, on a bipartisan basis, has been 
a staunch supporter of Ukraine, and remains committed to an 
independent, sovereign, democratic Ukraine. It has committed to 
continuing to stand against Moscow's aggression and ongoing efforts to 
destabilize Ukraine and keep it from making its own choices regarding 
its strategic direction. Members of the Helsinki Commission continue to 
express strong concern about the deteriorating humanitarian situation 
in eastern Ukraine and, importantly, occupied Crimea.
    Our commissioners remain firm supporters of the OSCE and of the 
Special Monitoring Mission in particular. They recognize the unique 
value it provides as an authoritative source of information on the 
ongoing violations of the Minsk Agreements, effectively serving as the 
international community's eyes and ears on the ground. Our 
commissioners have consistently recognized and commended the courage 
demonstrated by the monitors who serve with Mr. Hug in the face of the 
dangers they must confront on a daily basis to carry out the mission 
that we collectively have assigned to them. Our commissioners seek to 
better understand how best to ensure that the monitors are able to 
accomplish their mission as effectively and safely as possible.
    I very much look forward to Mr. Hug's presentation. He's going to 
give us a rundown of the situation using a very effective use of 
PowerPoint, which I know sometimes can be not necessarily a given. But 
this is one that I think you'll all find tremendously compelling. Thank 
you all for joining us today. I look forward to your questions after 
Mr. Hug's presentation.
    Alexander, please, you have the floor.
    Mr. Hug. Thank you very much. Thank you to the Helsinki Commission 
for the opportunity to address this forum today here.
    And I start right away. I'm just back from a weeklong tour, 
together with my monitors, in eastern Ukraine. The picture that you see 
behind me was taken Monday a week ago in the area called Luhansk, the 
only crossing area in this area where civilians can formally and 
officially go across the contact line. [See Appendix, Figure 1.] We 
have been there documenting the suffering. And this picture probably 
tells a lot more than I can describe here. You can see the monitors in 
their white helmets and the civilians there, trying to get about their 
normal lives in that conflict area. And, as Alex just said before, this 
is not a conflict that lasts a year. It is now over three years since 
it is raging in the eastern part of Ukraine.
    Very briefly, the OSCE Special Monitoring Mission has two main 
tasks enshrined in its document which has established it. It's the 
Permanent Council Decision 1117. It's on the one side monitoring and 
reporting activity, and on the other hand the dialogue facilitation 
task on the ground. That makes the SMM. You will find it interesting to 
note that the mandate itself does not refer to the Minsk Agreements, 
does not refer to ceasefire monitoring. And the reason for that is that 
the mission had been created on the 21st of March 2014, before the 
conflict had been erupting. Of course, these days, we are supporting 
the Minsk process, consisting of the Normandy format, the trilateral 
contact group, and four working groups that support the creation of the 
framework which should lead to a normalization at the contact line.
    These have different starting dates. The Normandy format was put 
into place on the 6th of June 2014. The first trilateral contact group 
meeting took place two days later when it had been recommended to be 
established. The joint center for control and coordination, which you 
see at the bottom there [Points to presentation slide; figure not 
available.] is a bilateral arrangement between the Russian Federation 
and Ukraine to jointly control and coordinate the implementation of the 
agreements the trilateral contact group has been forming. The 
connection between the two is that the special monitoring mission 
head--my boss, Ambassador Apakan--chairs the working group on security 
issues.
    Very briefly to where we came from--the mission was originally set 
out to monitor the change in government in Kyiv over the winter 2013-
2014. It was meant to be a small-scale monitoring mission dispatched to 
10 locations all over Ukraine. And we are still in these 10 locations. 
Very quickly after dispatching the mission on the 21st of March 2014, 
we saw demonstrations erupting in the eastern part of the country, 
where administrative buildings had become occupied. Occupants first 
were armed with wooden sticks, that turned into metal sticks, turned 
into sidearms, turned into Kalashnikovs, turned into mortars, turned 
into artillery devices, turned into multiple launch rocket systems. And 
the mission quickly found itself in the midst of an armed conflict.
    It was then in the summer of 2014 where the mission for the first 
time showed the world that it was able to implement its mandate both by 
reporting from the ground, but also facilitating dialogue--most 
dominantly so during the incident when that civilian airliner came down 
in the middle of the conflict area, where the mission facilitated 
access to the crash site, to emergency workers, including but not 
limited to the recovery of the bodies. The mission continued to try to 
evolve and develop alongside the emerging conflict here. Here you see 
the mission in front of what used to be International Airport of 
Donetsk. [Points to presentation slide; figure not available.] And 
continued to help to assist the implementation of the Minsk Agreements, 
including the verification of the withdrawal of heavy armory.
    Our best assets are the monitors. Alex made reference to it. They 
undertake daily important work on both sides of the contact line. [See 
Appendix, Figure 2.] They are all civilian, unarmed monitors, stationed 
mostly in the eastern part, but also in the rest of Ukraine where, as 
I've mentioned before, we have a mandate to monitor too. Here you see 
the map of Ukraine. [See Appendix, Figure 3.] Every OSCE flag 
symbolizes a presence across the country. However, most dominantly, of 
course, our monitors are dispatched to the eastern part. Here you see, 
at the moment, current figures of our deployment, some 640 monitors in 
place, most of them in the east. Roughly 400 Ukrainian colleagues and 
another 100 international staff members, like myself and other 
colleagues, that support the mission.
    Zooming in in the east, this is the eastern part of the country. 
Yellow here on this map is the contact line, this 500-kilometer-long 
line dividing government from nongovernment-controlled area. Every dot 
on that map there represents a presence where our teams are stationed. 
And you see two photographs there of forward patrol bases. [See 
Appendix, Figure 4.] These are smaller units where the mission places 
its monitors very close to the contact live, where they live, where 
they operate from, but also where they monitor, during nighttime in 
particular.
    The dimension of the conflict is also important to note. The 
conflict area is bordered with a contact line, which is approximately 
500 kilometer[s] long. You can look far and wide until you see another 
conflict with such a long contact line, a line where opposing forces 
face each other. There is the unsecure border, which is currently 
beyond government control, which is over 400 kilometer[s] long. Down 
south you have a seashore of approximately 70 kilometers that is 
currently also beyond the control of the government in Kyiv. The whole 
area that is currently outside government's control amounts to almost 
20,000 square kilometers, a bit less than half of the entire size of 
the two oblasts there. It's approximately half the size of my country, 
Switzerland, where I come from.
    A few words on the agreements in Minsk, important here. You read in 
the media about Minsk 1 and Minsk 2. There are, in fact, at least six 
agreements reached in Minsk. The most important ones are in front of 
you there. [See Appendix, Figure 5.] They list measures that should be 
taken to normalize the situation at the contact line. They also include 
political measures. The important, military, technical measures are 
here. This is the nonuse of weapons--that is the language used for the 
ceasefire. The disengagement to bring the forces apart from one 
another. The nonuse of mines to protect civilians. And the nonuse of 
weapons. Before I use more words, here is a quick video clip of what 
the mission currently is doing. It's in Ukrainian with English 
subtitles.
    [A video in Ukrainian is shown.] [See Appendix, Figure 6.]
    Mr. Hug. The Special Monitoring Mission's best asset are its 
monitors. They not only document the fighting in the eastern part of 
the country, also document the suffering of the civilian population. 
[See Appendix, Figure 7.]
    But first, to the current situation out in the east, you see here, 
the past six months documented on a week-by-week basis. [See Appendix, 
Figure 8.] You see the steadily increasing number of ceasefire 
violations that we currently see. And you can also see they reach high 
numbers that we still register. I have just cleared the latest summary 
report of the last 24 hours. And they have reached, yet again, a 
thousand ceasefire violations in a single day that we have seen.
    What is important also here is that you can see when they, the 
sides, agree to stop firing, as they have done there where the red 
arrow is at the beginning of the new school year, it is possible for 
them to cease fighting almost immediately. Within an hour's time, the 
entire 500-kilometer-long contact line is quiet. Why it doesn't seem to 
be sustainable? It's for the following reasons. There are reasons in 
the geography of the contact line. [See Appendix, Figure 9.] Some parts 
of it are made up of a river, like in the Luhansk region where the 
river builds a natural barrier between the sides. They can't come close 
enough. Fighting is less acute there. There are the proximity of the 
positions, which is a big problem. A decision has been taken to 
disentangle them.
    There is a big difference between the fighting in the countryside 
and in the town areas. And unfortunately, almost all the fighting takes 
place inside or nearby built-up areas and the heavy weapons, tanks, 
mortars, artillery that should have been long withdrawn are still 
there. We see them every day. Here you see main battle tanks in an area 
beyond government control at a distance where they should not be. [See 
Appendix, Figure 10.] You can see our monitoring patrol car there. That 
is the daily view that our monitors see. These findings are all made 
public on a daily basis on our website in Ukraine and English and 
Russian language. Here, more heavy artillery guns hidden in a tree 
line, photographed by one of our unmanned aerial vehicles that we use 
to monitor areas where we have no access to--equally a violation. [See 
Appendix, Figure 11.]
    The same on the government side. There are guns also very close up 
to the contact line, in engagement distance. Guns that should not be 
there. [Figure not available.] We also see other violations, 
including--and that picture also taken last week--the presence of 
mines. Here you see anti-tank mines over a road that normally is used 
by civilians. [See Appendix, Figure 12.] A mine like this killed our 
colleague, Joseph Stone, in the beginning of this year. All of those 
are clear violations of the agreements that I've just shown you before. 
Impact on the civilian populations, and more words cannot replace a 
short clip that I would like to show you. [Figure not available.] 
First, you see here the bridge that I have seen before in the winter 
period, now from above. This is this bridge over which up to 8,000 
civilians cross every day. They have no chance to do it by vehicle or 
by any other means. They have to do it on foot. People die on this 
bridge because they're exhausted from crossing it. In the summer, very 
hot. In the winter months, very, very slippery.
    Other crossing points look like this. [Figures not available.] 
Endless queues of thousands of cars, waiting times up to a day until 
civilians can cross the line. They do it either on car elsewhere, or on 
foot. There are only five crossing points all along the contact line. 
And where the conflict has been, the situation looks like this. 
Devastation. Villages destroyed. People have left, displaced inside 
Ukraine or now as refugees outside. People also die in the conflict 
still up to this date. We have registered this year alone more than 400 
civilian casualties both killed and injured. Most of them die through 
shrapnel, through the use of these weapons that should not be there--
the artillery, the mortars, the tanks that are still being used. The 
second biggest category of casualties are those that die or get injured 
from mines and unexploded ordnance. And I said before, over 400 this 
year. [See Appendix, Figure 13.]
    Infrastructure they rely on is also affected. Here you see a map 
that provides you the triangle between government-controlled Avdiivka, 
Donetsk city, the gray shaded areas in the lower part of the picture, 
and Yasynuvata, also not government-controlled area. In the middle of 
that is a filtration station. You see it here in this picture. [See 
Appendix, Figure 14.] This is a water filtration station that delivers 
clean water to both government and nongovernment controlled areas. 
Because positions are very close up to that facility, the facility 
comes regularly under fire. Not only interrupts the production of clear 
water, but also is an environmental hazard because in the building 
where the red circle is there, they store chlorine gas which they use 
to purify the water. Should a shrapnel penetrate the building there--
and it has been hit and affected--but should it penetrate the canisters 
where it is stored, it will lead to a leakage that will have 
devastating effect. And the gas will not hold and stop at the contact 
line. It will affect both sides equally.
    What needs to be done to stabilize the situation are two main 
measures. First is increase the proximity between positions. [See 
Appendix, Figure 15.] As I've shown you before, this is one of the big 
problems. They are too close in the area you've seen before, between 
100 meters and 10 meters one another. They see across this room their 
positions. That, of course, is recipe for more violence. So there the 
agreement says in some of these areas at least two kilometers distance 
needs to be built in. And depending on the weapons types, these weapons 
need to be withdrawn out of engagement distance. If that happens, and 
it has been agreed that it should happen, then more than 90 percent of 
the civilian casualties could be prevented, there would be less damage 
to infrastructure, and it would be a conductive environment to operate 
better on the ground and bring the situation back to normal, 
irreversibly so.
    A few words on our freedom of movement and our own challenges on 
the ground. Here you see a picture taken last week when I was in 
Luhansk, where there were internal struggles among the control 
structures there, unidentified armed men blocking roads in the middle 
of the city there. [See Appendix, Figure 16.] Here, on this map, you 
see what is an average patrolling routing here in the months of 
October. [See Appendix, Figure 17.] Yellow are the patrol routes. This 
is a computer system that allows us tracking our vehicles that are on 
the ground through a satellite imagery system. You see they go up to 
the unsecure border with the Russian Federation. But until they reach 
the border, they go through multiple checkpoints. By the time they 
arrive at the border, everyone knows that they're coming and anything 
we see there is highly controlled. You also see the presence of the 
patrols along the red line there, the contact line.
    We have stopped in our tracks on both sides of the contact line, 
statically so, through mine fields, in almost equal terms on both 
sides. But if you look at the right-hand side of this slide, you will 
see that the more intrusive, aggressive, intimidating stoppages of our 
work occur mainly, with a few exception[s], in areas beyond government 
control. [See Appendix, Figure 18.] It is also visible here, the more 
serious incidents. When assets of the mission are affected or under 
threat, then this mainly occurs to three-quarters in areas beyond 
government controlled, and to one-quarter in areas in government 
control. We face a serious incident when staff or assets are at risk 
every third day.
    A few words on the technology that we use at the moment, because 
this has become necessary to overcome the deficiencies of our operating 
patrols on the ground, because they're stopped so we deploy UAVs, 
different ones, small ones as you see here [See Appendix, Figure 19.] 
but also long-range UAV. We have cameras in place. [See Appendix, 
Figure 20.] We have acoustic sensors in place. We have access to 
satellite imagery. And there are handheld tools that the monitors can 
use to look into areas where they otherwise would have no access. What 
they see there you can look as follows. Here, again, the area of that 
bridge that you have seen during the nighttime, active fighting in the 
area captured by our camera there. The monitors monitor 24 hours, 
around the clock, and are being able to document the violence that also 
continues during nighttime in these areas. [See Appendix, Figure 21.]
    Also, these instruments are sometimes interfered with. What you see 
here is the blinding of a camera in the same area by an armed man with 
a laser pointer, who had blinded the camera for two hours. You see the 
man walking away there. Again, here, the blinding of the camera. [See 
Appendix, Figure 21.] Interference with our work happens regularly. And 
it happens only when those who interfere with our work want to prevent 
us from seeing what is going on on the ground. Now, this, dear Alex, is 
the end of my brief presentation. And I list here a few links to our 
website where our daily reporting can be accessed and where we try to 
document objectively and verifiably the reality in the eastern part of 
Ukraine. [See Appendix, Figure 22.]
    Thank you.
    Mr. Tiersky. Alexander, thank you for that tremendously compelling 
presentation. I think the first thing I'd like to do is, I know there 
are representatives of the Ukrainian Embassy present. I wonder whether 
you might want to make a statement? I think we have a roving microphone 
that we could provide? I'll follow with a couple of questions of my 
own, if you don't mind. Please.
    Questioner. Thank you very much. Thank you. Thank you very much, 
Mr. Hug. Thank you very much, Alex, for initiating this discussion and 
this briefing.
    I would like to praise the effort and courage and dedication of the 
SMM mission, which really makes a difference. From the day one it was 
very important to have mission on the ground to monitor and verify the 
ongoing violations of the Russia-backed militants. It was a necessary 
tool to tell the world about the launched and ongoing Russian 
aggression. I would like to also underline the fact that the monitors 
are carrying out their very dangerous mission without arms to be in the 
conflict zone. And as mentioned, you are everyday exposed to a lot of 
danger.
    In recent months, there has been discussion--and there was an 
initiative from Ukraine. One--actually, it was an initiative one-and-a-
half year ago to deploy a peacekeeping mission, which would be an armed 
international mission to have access to the entire territory of the 
conflict, and to the uncontrolled parts of the border, in order to stop 
the access and to stop provision of the arms from the Russian 
Federation, to stop the militants. To also ensure the ceasefire, ensure 
the storage of the weapons in the designated places.
    Could you please comment on the Ukrainian proposal and what is the 
position of the SMM? Because the Russian proposal only asks for 
deployment along the contact line, which would not by any means 
contribute to the safety or the region and to the peaceful process. 
From the side of the monitors, how do you see the possibility of 
helping you and helping the peace process?
    Thank you.
    Mr. Hug. Should I take this? Thank you for the question and the 
kind words, which I will duly convey to our monitors on the ground. 
They are appreciating the attention they get and the appreciation, of 
course, will be well-received at the contact line.
    With regard to the different proposals that have been made to add 
further stabilization in eastern Ukraine, I can only stick to the facts 
in the position I represent today. I have outlined that measures to 
stabilize the situation at the contact line which have already been 
agreed. If they would be implemented, even if only rudimentary ones 
that have been agreed--which is the stop using of weapons, the 
ceasefire, and the withdrawal of some of the weaponry--there would be 
immediately an environment within which other measures could be 
implemented, and an environment in which the OSCE SMM could report 
more.
    At the moment, the non-implementation--it's not a lack of 
monitoring, it's the lack of implementation. Our monitoring activities 
highlight the deficiencies of implementing the agreements, which is 
required now. And we would note it and duly report it if the will has 
been taken and this implemented and transmitted to the ground, which 
then should translate into tangible results in terms of ceasing fire 
and withdrawing weapons.
    Mr. Tiersky. I'll come back to the audience in just a moment, but I 
would like to put a couple of questions myself. I want to make sure 
that we are focusing on the challenges to the affected civilian 
population. So I'd like to ask you what your monitors are seeing in the 
context of falling temperatures and winter in terms of the impact on 
the humanitarian situation there that your monitors are seeing. I would 
also ask, in a secondary question, given the important work that the 
SMM is doing one would expect the local populations to be unanimously 
in support of the mission, and demonstrating their support of their 
mission regularly. Yet, sometimes we see images of local civilians 
having grievances with the SMM and expressing those grievances 
vociferously. Can you clarify why that might be?
    Mr. Hug. OK. Thank you. And I welcome that focus on the civilians. 
It is the civilians that bear the brunt of this conflict. I have 
mentioned before that civilians still die and get injured, more than 
one a day, still now in the fourth year of this conflict. That includes 
children.
    The winter, which is winter number four in this conflict, has now 
started in eastern Ukraine. Snow has been falling and the ground is 
freezing. There are villages along the contact line that now face the 
fourth winter without heating. Temperatures will go down below minus-
20. And these people have been pleading for ceasefires, not to protect 
themselves but to repair the gas pipelines that lead across the contact 
line. In some of these cases, one hour or two hour[s] of ceasing fire 
would be enough to repair the infrastructure to allow reconnection to 
the gas system, the water system that would provide them at least a 
warm home.
    Some of them have no electricity for years without end. And that 
means they have no communication. They can't charge their mobile 
phones, a very simple thing, but they run out of batteries of their 
mobile phones. They can't watch the news. They don't know what's going 
on. They can't refrigerate their food. They can't store their food 
without electricity. That makes life very difficult.
    And in areas very close to the line, the delivery of humanitarian 
aid becomes very difficult because, normally, the places at the line 
itself are beyond the last checkpoint of either side and in an area 
beyond control of any side, which makes it a very unpredictable area to 
deliver anything, services, visits by doctors, delivery of food.
    With regard to the attitude of the civilian population, it is true 
that whenever we enter these villages at the contact line, we face 
great frustration by the population. And we are the only international 
organization, at least with this footprint, that normally enters these 
places. They see no one else of the international community and then 
download their frustration of being shelled for three-and-a-half years 
without stopping. Some of these places that you have seen have not seen 
a single day without being shelled or being fired upon. That leads to 
great frustrations.
    However, we also have seen that civilians have been marshaled into 
protests against us, meaning being bused into the areas where we 
operate. And that, of course, creates not only a wrong picture of the 
mission, but also is a security concern to us.
    We welcome any dialogue with the civilian population, as only 
dialogue ultimately, we believe, will be able to solve this conflict.
    Thank you.
    Mr. Tiersky. Thank you. I'd like to ask if anyone in the audience 
would like to ask Mr. Hug a question at this time.
    Please.
    Questioner. Orest Deychakiwsky, formerly with the Helsinki 
Commission, now with the U.S.-Ukraine Foundation.
    I was wondering if you could talk a little bit more about the 
demining efforts and what the SMM is doing, how it's contributing to 
those.
    And also, to what extent are civilians still being used essentially 
as hostages where a lot of the firing takes place too close to 
residential areas? Has that diminished with the passage of time? Does 
it go up and down? If you could just give a little bit more of a handle 
on that.
    Mr. Hug. Yes, thank you. Mine action, very important. You have seen 
the second-biggest cause for injury and death among civilians in the 
area of the contact line. And tragically also, these weapons have 
killed our colleague Joseph Stone.
    I want to be very clear. These weapons are indiscriminate weapons. 
They kill at random and not necessarily those they are intended to. 
That's very important to recognize.
    Article six of the memorandum of 2014 clearly says that those who 
have signed the memorandum, which is the Russian Federation, certain 
areas of Donetsk and Luhansk and Ukraine, they have pledged to remove 
any mine that was in the ground at the time and not to place any new 
mines onto the ground. So any mine that we see at the moment, placed in 
the areas, including the ones we have seen before, are a violation of 
what has been agreed.
    The OSCE Special Monitoring Mission reports any minefield or any 
individual mine or even mine signs publicly so that those who have the 
capability to remove the mines can do so. We also liaise with the 
respective armed formations or the Ukraine armed forces to ensure that 
the paths we use are being cleared for mines so that we can do our job.
    The mines that we see are both antitank mines and antipersonnel 
mines. But the risk also extends to improvised explosive devices, which 
we have seen, as well as unexploded ordnance. These are unexploded 
shells fired and littering some of these villages, which also need to 
be removed. Touching them alone would be sufficient to be killed. A lot 
of children die because they see these shiny objects on the ground, 
they pick them up, it explodes either in their hands immediately or 
then when they take them home and start to dismantle them.
    In terms of the civilians, it is true that civilian areas are still 
being used as firing positions, not only places that hardware and 
ammunition and armed personnel into civilian areas, it also becomes a 
target because firing from these positions attracts counterfire. And 
because the weapons used in this conflict are not precision weapons, it 
is most likely and unavoidable that civilian infrastructure that is 
nearby is affected by it.
    And I have mentioned to you before, a lot of the fighting takes 
place in or nearby built-up areas, including big towns such as Donetsk 
city or Horlivka.
    Thank you.
    Mr. Tiersky. Thank you.
    Other questions from the audience at this time? Please.
    Questioner. Thank you very much for hosting this briefing.
    Mr. Hug, you mentioned that a lot of people don't have access to 
television, for example, because they have no power and so they're not 
getting information that way. That may be good or bad. What are the 
primary channels for people to get practical information that they need 
in the conflict zone and along the line of contact or elsewhere in the 
conflict zone? And how much information is or is not getting through?
    Mr. Hug. If those affected villages would like to get access to 
information, they would have to walk or drive towards the next town or 
village that has electricity, and that implies they would have to often 
travel through the lines, which is dangerous in itself both for being 
caught in the crossfire or due to the mines placed on the ground, and 
then would be able there to get access to information.
    Now, all sides involved use information, as well, as a tool to make 
their position clear. So often, that information that is provided, and 
it doesn't matter on which side of the line one is consuming the 
information, information not always is reliable. And there, the Special 
Monitoring Mission tries to make a contribution of objective, verified 
information that describes the reality on the ground as seen by 
monitors mandated to establish the facts.
    We have no radio station of our own, but we make our reports public 
also through media, social media channels. It's unique in the OSCE work 
that this has been done. Normally, the OSCE reports are cables that are 
not public. The OSCE reports from this mission are being made public on 
a daily basis in Ukrainian, Russian and English languages.
    Mr. Tiersky. Thank you.
    Please.
    Mr. Massaro. Thanks, Alex. I'm Paul Massaro. I'm the anticorruption 
adviser with the Helsinki Commission.
    I understand that there are corrupt activities in the region that 
you monitor. To what extent do those corrupt activities make it 
difficult to perform your mission? And to what extent do you notice 
them as an issue in the conflict?
    Mr. Hug. First of all, it's important to mention here that the OSCE 
Special Monitoring Mission is an observer mission, not an intelligence-
gathering operation. So what we are mandated to is to report what we 
see and what we hear. Investigating into any circumstance would go 
beyond our mandate. It's very important to make that distinction 
between the task of an intelligence agency and that of an observer 
mission, and that not least is important so that those we are 
confronted with understand what we're actually doing. So the ability to 
monitor corruptive practices is very limited.
    However, to come back to the facts that we see, is that orders that 
are being discussed or have been proclaimed as being issued often are 
not adhered to, which we can establish as facts on the ground. To begin 
with, the ceasefire orders to the orders to let us through at 
checkpoints without being hindered or searched, so there are 
indications that there is indeed an issue of not being able to 
centrally control on either side the last forward positions the sides 
have.
    Whether or not that is related to a corruptive practice or not, 
there are clear signs that centrally issued orders or processes are not 
followed through to the dots at the areas where we have our monitors 
dispatched.
    Mr. Tiersky. I'd like to express my gratitude to Alexander for the 
focus that he's put on the suffering of the civilians. We've spent 
quite a bit of time on that and I think you've really sketched it out 
for us quite compellingly.
    I would like, however, to come back to this question of the 
monitors and their ability to carry out their mandate. We are in 
Washington, we are in the U.S. Congress and Joseph Stone was an 
American citizen. He is the first casualty for an OSCE field mission. I 
wonder if you could take us through what investigations were done of 
that incident, what they've revealed, what the implications of Joseph 
Stone's death--or the attack that caused the death--what the 
implications have been on the monitoring mission's ability to do its 
job. Have procedures changed? Have they made it more difficult to 
conduct the observations that you would like conducted? And has there 
been an impact, for instance, on the recruitment of volunteers? How are 
we doing in terms of manning the monitoring mission?
    Mr. Hug. Thank you. And I would like to make it very clear that 
Joseph Stone didn't die in an accident. He died at the explosion of an 
indiscriminate weapon. That has to be very clear and we have made that 
clear from the very beginning.
    Immediately in the aftermath of his death, there were several 
processes initiated. An internal audit process looked at the way the 
patrol has been put together, how the mission has tackled the aftermath 
of the incident. That process has come to a conclusion and led to 
several revisions of internal rules and procedures of how patrols are 
being conducted.
    There was an external, independent forensic investigation which 
looked into the cause of the explosion, the nature of the explosion as 
such. And that process has also been concluded.
    There is a criminal inquiry by the Ukrainian authorities launched 
into the incident under Ukrainian law. And I have to open here a 
bracket: The incident took place in an area beyond government control, 
so very difficult for anyone to look into the incident because it 
happened in an area where government officials have no access.
    And the mission itself has also undertaken immediate measures. It 
has written to the signatories of the Minsk Agreements, the Russian 
Federation, Ukraine and the regions of Donetsk and Luhansk beyond 
government control, to provide the mission with maps of contaminated 
areas where they know the areas are risky for patrolling. We have not 
yet received any answer from anyone that had been addressed by this 
letter that dates back to the 5th of May 2017.
    In terms of mitigation measures, we have immediately stopped 
deploying new monitors to the area starting 23rd of April up to the 1st 
of October, when we have resumed deploying new staff to the eastern 
part of the country.
    The second mitigation measure was to restrict patrolling activities 
to concrete and asphalt services only. The roads that we have been 
using before included gravel roads. An assessment of the gravel road as 
to the contamination with mines is very difficult and we have excluded 
them at the moment from our patrolling routes. Should we get 
information from the sites, that might be an input towards lifting this 
restriction either partially or fully.
    These restrictions, however, did not prevent us from being able to 
establish the trends, document the suffering. We are still present in 
all of the hotspots along the contact line--less than before, but we 
are still present there during daytime and during nighttime with the 
capability of technology, of which I have outlined for you some before. 
They help us to look into areas which would be otherwise difficult to 
access.
    The mission will not be the same after the death of Joseph. We will 
keep that moment with us and we will make sure that his work will not 
be forgotten. And I'm grateful that it has been mentioned here again.
    The sacrifice he made, the ultimate sacrifice, is the demonstration 
of the will of this mission to contribute to finding a solution that 
will bring Ukraine back to a stable, normal pace.
    Thank you.
    Mr. Tiersky. Can you tell us a few words about the national 
representations, the national contingents in the mission as a whole as 
well as in the monitoring teams when they go out on patrol? What are 
the major nationalities we're talking about and how do you approach the 
issue of composition of a particular team for a patrol?
    Mr. Hug. The OSCE is an organization consisting of 57 participating 
States. That includes Switzerland, France, the U.S., Russia, Ukraine 
and others. Of those 57, over 40 are seconding staff, sending staff to 
this mission.
    The biggest contingent among the monitors is that of the United 
States with 66 staff in total; others have far less. The biggest group 
in the OSCE Special Monitoring Mission is that of the European Union. 
Between 50 and 60 percent of all monitors come from member States of 
the European Union. The Russian Federation, as this is certainly 
implicit in your question, has a contingent of 39 monitors at the 
moment in the mission.
    Patrols that are dispatched along the contact line are never 
uniform patrols, so there is not a Swiss patrol or a Ukrainian patrol 
or an American patrol or a Russian patrol. They are mixed in terms of 
their seconding states' memberships. When they come back in the evening 
from patrol, all the different members need to sit down and agree on 
their patrolling report which then is becoming part of the overall 
mission report.
    These are groups between six and eight, as a minimum, of officers 
that come from different nationalities and different backgrounds. And 
the mission takes great care that this information is objective, 
including in the way how it is being collected.
    Mr. Tiersky. And in terms of gender balance in the mission, can you 
describe where we stand with that and what the implications are 
thereof?
    Mr. Hug. The gender balance is not as we wish to have it. In many 
contingents, there are no female monitors at all dispatched to the 
mission itself. I believe among the 66 Americans, there are some 20 
females, a rather good percentage there, but we encourage all 
participating States to send additional candidates, female candidates 
forward. The mission itself is relying on the candidates put forward by 
participating States. As we do not recruit in the open market, we 
depend that these candidates come through participating States.
    The background for being able to work with the mission is not as 
such that you need to have necessarily a military background. What we 
look for are candidates, in particular for the monitoring activity, 
that have previous exposure to similar circumstances. You can gain that 
experience as a diplomat in a crisis region, as having worked for the 
ICOC or an NGO, being a journalist in an area of conflict, but also, of 
course, as being dispatched as part of the military or a police force 
in these areas. But experience is what we are looking for, because 
dispatched to the contact line means immediate exposure to high risks 
where we expect people to react accordingly, not to put themselves or 
their colleagues at risk.
    Mr. Tiersky. Well, if there is anyone in the room who fits those 
qualifications or on our Facebook feed watching, this is clearly a 
vital mission and I would encourage you to volunteer your services.
    Do we have more questions from the audience?
    We have several. Let's start right here, please.
    Questioner. Hi. Is there anything that lawmakers in the U.S. can do 
to help your mission?
    Mr. Hug. I think the most important thing that needs to continue is 
to pay attention to the conflict. And the Special Monitoring Mission is 
contributing to that by providing the Congress here, but also all 57 
participating States, with objective information that can form the 
basis for any decision that needs to be taken.
    The information we provide doesn't reflect the entire reality on 
the ground because we are prevented from doing so, but it represents 
trends, it highlights the risks, it highlights the noncompliance with 
the agreements and it provides, once again, a basis for any decision 
that lawmakers or others need to take with regard to the ongoing 
conflict.
    Mr. Tiersky. And I saw another question over here, please.
    Questioner. Hi. My question regards when the observers observe a 
clear violation of the Minsk Agreement, either the heavy weaponry or 
the point of contact--and there's a lot of them, the data shows--do you 
report that to either side, saying, You have your tanks too close, move 
them back? Or is there any punishment that goes to the side that breaks 
that agreement? Or what incentives are there for both sides to agree to 
disengage from the point of contact?
    Mr. Hug. A very important question. The first part I can answer 
very quickly. Yes, we make all information that we see on the ground 
publicly available. So if we see a tank in an area where it shouldn't 
be--and a tank, just as an example, needs to be moved back 15 
kilometers from the contact line--so any tank that we see within the 
range of 1 to 15 kilometers is a violation. We report it, including 
giving the location where we have seen the tank. And that you will find 
in our report the next day.
    We also report violations to the Joint Center for Control and 
Coordination--I briefly introduced this before--a construct consisting 
out of Russian and Ukrainian officers that are formally in Ukraine and 
are mandated to jointly control and coordinate the implementation of 
these agreements. And they have specific tasks given also by the 
agreements itself.
    The second part of your question is an important one, and that is 
the lack of accountability for violating the agreements. I have just 
here the figures with me. This year alone--now, hold your breath--we 
have registered 352,000 ceasefire violations alone--352,000 ceasefire 
violations. There would need to be a process in place through which 
those sides that know that they have been firing, because nobody fires 
without being given an order or at least the firing having been 
tolerated, but these acts need to be followed up. Not holding violators 
to account is an open invitation for more of the same. And we have made 
it very clear that any violation, including those that affect us 
directly, should be followed up immediately. And why do we say so? 
Because if we are directly affected, it is very clear who did it, there 
is no doubt, because we see it directly. If someone threatens us at 
gunpoint, if someone stops us, these are all violations of the 
agreements and they require follow up.
    The systems are there. There is a disciplinary code in the Ukraine 
armed forces. There are similar systems in the armed formations. But 
what is lacking is a follow through and to hold those to account who 
continue to violate the agreements.
    Mr. Tiersky. I see a question in the back, please.
    Questioner. Thank you. And I guess I'm building off of the last 
questions a little bit.
    Really impressed with the objectivity that you all put into what 
you're doing. And to that end, there's discussion here about defensive 
weapons being supplied to the Ukraine. Can you talk about what effect 
that would have on the whole situation from a monitoring perspective? 
We have accountability issues, we have a question about what the United 
States can do--just kind of curious what effects that would have.
    Mr. Hug. As I have said before, I can only stick to the facts. And 
with regard to your question, I know this is a question that has been 
often asked to us. Unless we know exactly what these weapons would be 
and how they would be delivered and under which conditions they will be 
deployed, I can't make any judgment. Anything I would say at this stage 
would be a speculation.
    Mr. Tiersky. Please. Oh, sorry, there's a question in the back.
    Questioner. Hi. I wanted to ask something. In your reports, your 
recent reports, you mentioned that the Ukrainian armed forces are now 
in control of parts of the gray zone, including the village of 
Travneve. Have you been able to follow up on that? And do you know if 
there has been any media reaction to that?
    Thank you.
    Mr. Hug. Thank you. Also, very important here to note there is no 
gray zone defined anywhere. So the word ``gray zone'' is an invention 
that has come to the surface. The Minsk Agreement has clearly 
identified a line, the contact line, and also clearly identified that 
positions that had been at the time of the agreement when it was signed 
should not be moved. This agreement has been violated multiple times on 
both sides of the contact line, most obviously so in the beginning of 
2015 when the area around Debaltseve was taken. That was clearly in the 
agreements on the side that would belong to the control of the 
government of Ukraine.
    The specific villages you have mentioned before, we have not yet 
been able to access, including due to the presence of mines, which we 
know they're there because the civilians have reported they have seen 
them. We have requested the sides to jointly demine the area to make it 
possible for us to access the area.
    We have been accused by both sides of not having access to village 
and not reporting about the village. We have made it very clear that 
the mission stands ready. If you look in our social media feeds, you 
see that at the time patrols were nearby the villages, we have been 
clearly seeing that those who have the responsibility to demine have 
not done so and, therefore, prevented the mission from accessing these 
specific areas.
    Mr. Tiersky. Please.
    Questioner. Thank you for taking the time to talk with us. And 
thanks for doing this important monitoring mission.
    I just wanted to ask--I've seen your reports, they're incredibly 
detailed. I'm curious about the methodology of the monitoring and as 
you work to report the trend analysis over time if there's a 
consistency in the number of sensors that are employed so that those 
numbers aren't just a reflection of an increased number of sensors of 
more flight time with your UAVs or greater patrol presence or something 
like that. Is it fairly consistent over time as we look at those 
numbers?
    Mr. Hug. A very important question. As any statistics, statistics 
have to be analyzed first before one can draw conclusions. What 
certainly is consistent is the trends that we see. They will be the 
same if we see more or less, we would see whether there would be an 
increase or a decrease. But we have steadily been increasing our 
ability to monitor, including the placement of sensors, cameras and 
acoustic sensors, and that led to more observations. But the trends, 
the increase in violence or the decrease in violence, are clearly 
visible. Also, if we restrict, for instance, our patrolling is still 
there, we can see because we monitor statically then the number of 
violence.
    But it's a very important point. Numbers, as such, don't tell much 
because it depends on how they have been collected. Important is what 
measures the sides have been taking in the period these numbers have 
been recorded and what actions they're taking to prevent the numbers 
from reoccurring at the same level.
    Mr. Tiersky. More questions from the audience at this time? Please.
    Questioner. Just wondering if you can comment on whether there are 
opportunities for humanitarian corridors. You've talked about asking 
each side to demine or the need for time to repair electricity or other 
utilities and so forth. Is there actually any cooperation on that? Are 
there opportunities to build on that to create humanitarian corridors 
for addressing the needs of civilians?
    Mr. Hug. Access to these areas is very difficult and needs always 
to be locally negotiated. The methodology we apply in there, the 
mission is also vital as we have our teams on both sides of the line. 
The sides don't talk to one another, there is no communication formally 
across the contact line. Our teams discuss across the lines or they 
facilitate that dialogue that otherwise will not happen.
    It then allows to create what we call local windows of silence 
where in an area defined on the map in a planning session--an area is 
defined where the sides through our dialogue agree to hold fire to 
enable a repair crew to come in to repair a gas pipeline, a water 
pipeline or recover the dead or fallen or take out the wounded--and at 
the time this action is happening, not only facilitate the dialogue--
the mission facilitates the dialogue, but also dispatches what we call 
mirror patrols on both sides to then flag immediately if there is a 
movement of troops towards that area that has been called for an area 
of silence.
    The problem is, because the sides don't move their positions out, 
often when this window of silence is terminated and the mission moves 
out, the fighting resumes. And then the next day, the same repair work 
most likely will have to be done. Therefore, the only sustainable way 
to generate access would be disengagement of forces and the withdrawal 
of the heavy weapons to a distance where they cannot be engaged any 
longer.
    Mr. Tiersky. I see another question.
    Questioner. Thanks. Do you feel you have a sufficient number of 
observers in the east? And one reason I ask that is because you 
mentioned the 9 or 10 cities across Ukraine. I know that initially 
there may have been more of a reason to have, back in 2014, observers 
in those cities. Has there been any discussion of sort of shifting 
that, because one could perhaps make the argument that they aren't as 
needed in some of the other cities in central and western Ukraine, 
let's say, but more observers might be needed on the line of contact? 
Or is that part of the mandate, so it's completely beyond your control?
    Mr. Hug. That will be indeed the short answer to it. The mandate 
lists all the towns where we have to be present. These are the 10 towns 
all across Ukraine. How we then split up the workforce among those is 
the prerogative then of the head of mission, but there has to be a 
representation in all of the 10 areas. That is part of the mandate. 
Should it be changed, it requires a new Permanent Council decision in 
consensus to change that specific area.
    More monitors in the east would deliver more results, as you 
rightly have said, but not necessarily more stability. Only the will of 
the sides to abide by what they have promised to do, combined with more 
monitors, would lead to more change.
    We are already able to identify what needs to be done. That is a 
fact at the moment. It is now time that the sides realize and accept 
their failure to implement the agreements and withdraw their weapons 
and disengage where they're too close. Unfortunately, the opposite 
often happens, that the positions are moving forward and weapons, as 
you have seen before, are brought in, even under our noses, towards a 
distance where they can easily be engaged.
    And we only see the tip of the iceberg, so you can imagine the 
scale of the tension that is out there that we actually have no eyes or 
ears on at the moment.
    Mr. Tiersky. Sure, one more. Yes.
    Questioner. Yes, thanks for bringing that up, Orest. I figured I'd 
also chime in there because that surprised me when I saw on a map that 
there are these observers in the west and central Ukraine and, OK, that 
makes sense with the mandate. But I understand the Kyiv office, you're 
probably putting the reports together, the data is going there. In 
those other offices, what is the daily job of observers?
    Mr. Hug. The mandate mandates and tasks the mission to monitor on 
the security situation in Ukraine as well as monitoring adherence to 
human dimension commitments that Ukraine has taken and which is 
enshrined in our mandate. So this is what they are monitoring. And 
also, these findings are being made public.
    There are offices that are close to the conflict area. The office 
in Kharkiv, for instance, the office in Dnipro. The office in Kherson 
also very important, close to the administrative boundary line with the 
Crimean Peninsula, an issue that we haven't been discussing yet. They 
also fulfill a very important monitoring function also to see whether 
or not the conflict that is tucked now to the far southeast is spilling 
over further towards the west. So they have an early-warning function 
in these areas as well, warning the participating States of an 
emerging--possibly emerging conflict in these areas so that early 
action can be taken to remedy that.
    Questioner. So they really are monitors.
    Mr. Hug. They're monitors, yes. And some of them have served in the 
east before and they then move into areas outside the conflict area. 
But these teams are relatively small. They're between 5 and 14 
depending on the location.
    Mr. Tiersky. Ladies and gentlemen, I think you'll agree that we 
have spent a tremendously useful and informative hour together.
    I am again reminded by this discussion of the extraordinarily 
admirable effectiveness of the Special Monitoring Mission within the 
political constraints that are imposed from outside.
    In closing our briefing today, I want to thank Alexander Hug for 
his service to the monitoring mission and, through you, the monitors 
who work with your teams. Clearly, the challenges are enormous. The 
suffering of civilians continues on a daily basis. Ultimately, progress 
will rely on the political will of the violators of the Minsk 
Agreements. We at the Helsinki Commission will continue to address that 
point publicly and regularly. We will continue to, as you requested, 
keep attention on the conflict, both in eastern Ukraine and in Crimea, 
and in doing so we will, as much of the rest of the international 
community, rely in no small part on the excellent reporting of the SMM 
itself.
    So again, I'd like to thank you for coming to Washington to provide 
us with this briefing and for your time with us today.
    Please join me in thanking our speaker.
    Mr. Hug. Thank you. [Applause.]
    [Whereupon, at 3:10 p.m., the briefing ended.]
    
    
    
A P P E N D I X


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
